No. 20-7868

 

IN THE SUPREME COURT OF THE UNITED STATES

 

DOUGLAS KELLY
Petitioner

v.

UNITED STATES OF AMERICA
Respondent

 

RESPONDENT MAURICE ATKINSON’S BRIEF IN SUPPORT OF
PETITIONER DOUGLAS KELLY’S PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES SUPREME COURT

Respondent, Maurice Atkinson, supports the position of Petitioner, Douglas
Kelly. As such, Respondent Atkinson adopts the arguments set forth in Petitioner
Kelly’s Petition for Writ of Certiorari and incorporates them into his Petition. For
the reasons set forth in Petitioner Kelly’s Petition for Writ of Certiorari, Respondent
Atkinson respectfully requests that the Supreme Court grant certiorari in the
instant case.

Respectfully Submitted,

THOMAS, THOMAS & HAFER, LLP
/s/ John F. Yaninek

John F. Yaninek, Esquire

PA Attorney ID #55741

PO Box 999

Harrisburg, PA 17108

(717) 441-3952 - Phone

(717) 237-7105 — Fax
Date: May 5, 2021 Attorney for Respondent, Maurice Atkinson

1
CERTIFICATE OF MEMBERSHIP IN BAR
I, JOHN YANINEK, counsel for Respondent Maurice Atkinson, hereby certify

that I am a member of the Bar of this Court.

/s/ John F. Yaninek

JOHN F. YANINEK
No. 20-7868

 

IN THE SUPREME COURT OF THE UNITED STATES

 

DOUGLAS KELLY
Petitioner
v.

UNITED STATES OF AMERICA
Respondent

 

DECLARATION PURSUANT TO RULE 29.2
OF THE RULES OF THE SUPREME COURT

I declare under penalty of perjury under the laws of the United States of
America that Respondent Maurice Atkinson’s Brief In Support Of Petitioner
Douglas Kelly’s Petition For Writ Of Certiorari was mailed to the Clerk’s Office of
the United States Supreme Court in Washington D.C., postage paid and fees paid

(USC-426), First Class Mail.

DATE: May 5, 2021

/s/ John F. Yaninek

John F. Yaninek
Counsel for Respondent,
Maurice Atkinson
